UNITED STATES OF AMERICA, Plaintiff - Appellee, v. RAYMOND IDEMUDIA AIGBEKAEN.
Defendant - Appellant.
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
943 F.3d 713; 2019 U.S. App. LEXIS 34659
No. 17-4109
November 21, 2019, Decided
May 8, 2019, Argued
Editorial Information: Subsequent History
Rehearing denied by, En banc, Rehearing denied by United States v. Aiabekaen. 2020 U.S. App. LEXIS
5588 (4th Cir., Feb. 24, 2020)
Editorial information: Prior History
(2019 U.S. App. LEXIS 1}Appeal from the United States District Court for the District of Maryland, at
Baltimore. James K.,Bredar, Chief District Judge. (1:15-cr-00462-JKB-2).United States v. Aiabekaen.
720 Fed. Appx. 156, 2018 U.S. App. LEXIS 10330 (4th Cir. Md„ Apr. 24, 2018)
Disposition:
AFFIRMED.
ARGUED: Michael Lawlor, BRENNAN, MCKENNA & LAWLOR, CHTD.,
Greenbelt, Maryland, for Appellant.
Matthew James Maddox, OFFICE OF THE UNITED STATES
ATTORNEY, Baltimore, Maryland, for Appellee.
ON BRIEF: Robert K. Hur, United States Attorney, Ayn B.
Ducao, Assistant United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Baltimore, Maryland, for Appellee.
Judges: Before MOTZ, WYNN, and RICHARDSON, Circuit Judges. Judge Motz wrote the majority
opinion, in which Judge Wynn joined. Judge Richardson wrote an opinion concurring in the judgment.

Counsel

CASE SUMMARYWarrantless nonroutine forensic searches of defendant's devices at an international
airport violated the Fourth Amendment because agents had probable cause to suspect that defendant
had previously committed grave domestic crimes, but these suspicions were entirely unmoored from
sovereign interests applicable to border search exception.
OVERVIEW:, HOLDINGS: [1]-Warrantless forensic searches of defendant's devices in May of 2015
lacked the requisite nexus to the recognized historic rationales justifying the border search exception to
the warrant requirement because agents had probable cause to suspect that defendant had previously
committed grave domestic crimes, but these suspicions were entirely unmoored from the sovereign
interests applicable to the border search exception; [2]-Where a search at the border was so intrusive as
to require some level of individualized suspicion, the object of that suspicion had to bear some nexus to
the purposes of the border search exception in order for the exception to apply. The warrantless,
nonroutine forensic searches violated the Fourth Amendment; [3]-Given the uniform body of precedent
that permitted warrantless searches at the border in May of 2015, the good-faith exception applied.

A04CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
A>
restrictions and terms and conditions of the Matthew Bender Master Agreement.

&

94655379

UNITED STATES OF AMERICA, Plaintiff - Appellee v. RAYMOND IDEMUDIA AIGBEKAEN.
Defendant - Appellant
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
2020 U.S. App. LEXIS 5588
No. 17-4109
February 24, 2020, Filed
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}(1:15-cr-00462-JKB-2).United States v. Aiabekaen. 943 F.3d 713, 2019 U.S.
App, LEXIS 34659 (4th Cir. Md., Nov. 21, 2019)
Counsel

For United States of America, Plaintiff - Appellee: Ayn Brigoli Ducao,
Robert K. Hur, U. S. Attorney, Matthew James Maddox, Assistant U. S. Attorney, Jason
Daniel Medinger, Assistant U. S. Attorney, Office of The United States Attorney, Baltimore,

MD.
For Raymond Idemudia Aiabekaen. Defendant - Appellant:
Raymond Idemudia Aiabekaen. Fci Fort Dix, Federal Correctional Institution, Joint Base
MDL, NJ.
Judges: panel: Judge Motz, Judge Wynn, and Judge Richardson.
Opinion

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.

*

Entered at the direction of the panel: Judge Motz, Judge Wynn, and Judge Richardson.

-tLr '-■£

;

\
A04CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

94655379

OUTCOME: The judgment of the district court was affirmed.
LexisNexis Headnotes
Constitutional Law > Bill of Rights > Fundamental Rights > Search & Seizure
Criminal Law & Procedure > Appeals > Reviewability
When a Fourth Amendment case presents a novel question of law whose resolution is necessary to
guide future action by law enforcement officers and magistrates, there is sufficient reason for a court to
decide the violation issue before turning to the good-faith question.
Criminal Law & Procedure > Appeals > Standards of Review > Clearly Erroneous Review >
Findings of Fact
The United States Court of Appeals for the Fourth Circuit reviews a district court's legal conclusions de
novo and its factual findings for clear error, considering the record evidence in the light most favorable to
the Government. When the Government conducted the challenged searches without warrants, it bears
the burden of proving, by a preponderance of the evidence, that an exception to the warrant requirement
applies.

A04CASES

2

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

94855378

USCA4 Appeal: 17-4109

Doc: 252

Filed: 02/24/2020

Pg: 1 of 1

FILED: February 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-4109
(1:15-cr-00462-JKB-2)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

RAYMOND IDEMUDIA AIGBEKAEN
Defendant - Appellant

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Motz, Judge Wynn, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

